No. 19-783

 

 

IN THE
Supreme Court of the United States

NATHAN VAN BUREN,

Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

BRIEF OF THE FEDERAL LAW
ENFORCEMENT OFFICERS
ASSOCIATION AS AMICUS CURIAE
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,559 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 31, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
